           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 STATE DISABILITY DETERMINATION
  SERVICES REMOVAL OF SENSITIVE
        INFORMATION FROM
       EXCESSED COMPUTERS


    August 2005   A-14-05-15063




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           SOCIAL SECURITY

MEMORANDUM


Date:   August 4, 2005                                                                    Refer To:

To:     The Commissioner

From:   Inspector General

Subject: State Disability Determination Services' Removal of Sensitive Information from
        Excessed Computers (A-14-05-15063)


        OBJECTIVE
        Our objectives were to examine the policies and procedures that the State Disability
        Determination Services (DDS) follow when excessing computer equipment and to
        ensure that sensitive information is removed prior to the computer’s disposition.

        BACKGROUND

        In February 2004, we were made aware of audit results from a North Carolina State
        Auditors1 report in which they had selected a sample of computers that were excessed
        by a variety of State agencies. The auditors found that the majority of these machines
        had hard drives that were readable, and data files that were accessible, which included
        password files and other sensitive information. Some of these computers were from the
        North Carolina Department of Health and Human Services, which is the parent agency
        for the North Carolina DDS.

        The Social Security Administration’s (SSA) Office of Federal Disability Determination
        Services (FDDS) and the 54 DDSs make disability determinations and process disability
        claims. DDSs use various software applications, known as case processing systems, to
        develop, review and process disability determinations. These case processing systems
        run on various hardware platforms,2 which store and process sensitive information. This
        information includes individual names and addresses, Social Security numbers and
        medical information of disability claimants.


        1
         The State of North Carolina, Office of the State Auditor, Information Security Assessment:
        Implementation of Enterprise Security Standard S003, Permanent Removal of Data from Electronic
        Media, February 2004.
        2
            The type of computer on which a given operating system or application runs.
Page 2 - The Commissioner


Wang computers were used by 26 of the DDSs and the FDDS as their hardware
platform. Each of these sites has migrated from using Wang computers to IBM iSeries
(AS/400) computers as their hardware platform, with the exception of Nebraska,
which is in the process of migrating to an SSA-standard server platform. As of
January 25, 2005, SSA data showed that of the 27 Wang computers, 12 have been
disposed of and the remaining 15 are still on-site at the DDSs.

According to SSA’s Disability Determination Services Security Document (DSD),3 DDSs
are required to run the SSA approved Wipe Disk software utility on equipment that was
used for the storage of sensitive information (servers, laptops, workstations, etc) prior to
its disposal or donation to another entity. Wipe Disk is a software program that “wipes”
or erases a disk drive of its data by overwriting the entire drive with repetitive
characters, making the data irretrievable.

To test whether equipment had been properly cleansed of sensitive data prior to its
being excessed, we selected four DDS sites and requested a list of computer
equipment on-site ready for disposal. Table 1 below shows the equipment selected
from each DDS site for testing.

                                               TABLE 1


           DDS Site                 Servers          Laptops        Workstations      Total


District of Columbia                    0                0                 10          10


North Carolina                          0                5                  5          10


Pennsylvania                            2               12                  7          21


Delaware                                0                0                  6          6


             Total                      2               17                 28          47




3
    Disability Determinations Services Security Document (September 2003), page 36.
Page 3 - The Commissioner

RESULTS OF REVIEW

Data on all servers, laptops and workstations that we forensically tested at the four
selected sites had been properly removed with the Wipe Disk utility. However, we
identified two issues which potentially affect equipment used in a significant number of
the DDSs. These issues relate to the limitations of the Wipe Disk utility and its ability to
remove sensitive data from computer equipment in the DDSs.

First, DDSs are potentially excessing Wang computers without ensuring that data is
irretrievable from the hard drives. The Wipe Disk utility does not work on Wang
computers. Therefore, the Wang computers still on-site at the DDSs are at risk of being
excessed with sensitive data intact.

Second, two of the four selected DDSs had boxes of obsolete server tapes on-site.4
Because these tapes were used as server back-ups5 they may contain sensitive
information. Systems personnel at these DDSs informed us that they were storing the
tapes because they were unaware of any guidance from SSA on how to remove data
before disposal of the tapes.

Wang computers are potentially being excessed with sensitive data intact

DDSs are potentially excessing Wang computers without ensuring that data is
irretrievable from their hard drives. As noted previously in the Background section,
Wang computers were used by 26 of the DDSs and the FDDS. As a result, claimants’
medical or personal information, as well as sensitive SSA data is at risk of being
compromised. When equipment is taken out of service and prepared for disposal, the
Wipe Disk utility must be used by DDSs to cleanse the hard drive of sensitive
information. Of the four DDSs we selected for testing, two still had their obsolete Wang
computers on-site and the remaining two DDSs did not use Wangs.

An individual from the Office of Public Service and Operations Support provided
guidance to the regions via e-mail stating that there is not a utility, such as Wipe Disk,
that can be used on the Wang computers. This individual recommended that the
regions reformat the hard drives to make the data irretrievable. However, reformatting a
hard drive does not make the information stored irretrievable, as there are software
utilities that can reformat the data back into its original content. For example, the audit
report issued by the North Carolina State Auditors noted that they were able to rebuild
and gain access on all of the hard drives that had been reformatted prior to their being
excessed.6 If the hard drives had been reformatted for any of the previously excessed
Wang computers, these drives may still contain sensitive data.

4
  The obsolete server tapes retained at the two DDSs were from both Wang and non-Wang equipment.
5
  Back-up is the activity of copying files or databases so that they will be preserved in case of equipment
failure or other catastrophe.
6
  The State of North Carolina, Office of the State Auditor, Information Security Assessment:
Implementation of Enterprise Security Standard S003, Permanent Removal of Data from Electronic
Media, February 2004, page 7.
Page 4 - The Commissioner


Ideally, the Agency would seek a software utility similar to Wipe Disk to use for the
disposition of the Wang computers still on site at the DDSs. However, it appears that
no such utility exists. Until such time, it is advisable for SSA to instruct the DDSs to
remove or physically destroy the hard drives prior to the disposal or donation of these
computers to another entity. Once the Agency determines an appropriate method of
ensuring that data is irretrievable from these computers, official guidance should be
disseminated to the DDSs.

Obsolete server tapes are still being held

Two of the four selected DDS sites stored old magnetic tapes from obsolete servers.
These tapes were used for server back-ups and may contain sensitive information. The
DSD mandates the use of Wipe Disk on equipment used for data storage such as hard
drives, but does not address how to ensure sensitive data is removed from other
storage media with which Wipe Disk utility is incompatible. One such storage medium
with which Wipe Disk is incompatible is magnetic media tapes.

SSA’s Program Operations Manual System (POMS) requires disposal of any claimant
data in such a manner as to make the data irretrievable to unauthorized personnel and
that magnetic tapes are to be erased before the tapes are released to other users.7
However, POMS does not address the method for erasing the data. Some methods of
erasing data will not make it irretrievable to unauthorized personnel. The Wipe Disk
utility only overwrites the hard drive or drives on a device and does not work on
magnetic tapes.

The DDS systems personnel in these two offices stated they were unaware of SSA
guidance on how to dispose of these tapes. While the DSD is intended to supplement
existing policies and procedures in the POMS, the guidance relevant to systems
security for DDSs needs to be uniform. The Agency should determine an appropriate
method of ensuring that data is removed from obsolete server tapes and other media.
Once determined, the DSD and POMS should be updated to reflect this method. SSA
also needs to ensure that DDS employees are aware of the appropriate policy.




7
    POMS, section DI 39566.080.
Page 5 - The Commissioner

CONCLUSIONS AND RECOMMENDATIONS
The DSD requires DDSs to run the SSA approved Wipe Disk utility on equipment that
was used for the storage of sensitive information prior to its disposal or donation to
another entity. Data had been properly removed from all excess servers, laptop and
desktop computers that we forensically tested. However, there is not an appropriate
method of ensuring that data is irretrievable from obsolete Wang computers. In
addition, the DSD does not clearly mandate a method for removing data from other
storage media such as server tapes. As a result sensitive information on obsolete
Wang computers and server tapes are at risk.

We recommend SSA:

1. Direct DDSs either to ensure data is irretrievable or physically remove and destroy
   the hard drives on computers to be excessed.

2. Modify or update the DSD and POMS to ensure the Agency’s guidance is complete
   and consistent regarding the proper method of removing data from and disposing of
   obsolete server tapes.

3. Ensure DDS personnel are aware of the policy and procedures to dispose of any
   claimant data in such a manner as to make the data irretrievable to unauthorized
   personnel.

AGENCY COMMENTS

SSA agreed with our recommendations. See Appendix C for the text of SSA’s
comments.




                                               S
                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
DDS    Disability Determination Services
DSD    Disability Determination Services Security Document
FDDS   Office of Federal Disability Determination Services
OIG    Office of the Inspector General
POMS   Program Operations Manual System
SSA    Social Security Administration
                                                                     Appendix B

Scope and Methodology
Our objectives were to examine the policies and procedures that the State Disability
Determination Services (DDS) follow when excessing computer equipment and to
ensure that sensitive information is removed prior to the computer’s disposition.

To accomplish these objectives, we selected four DDS sites (North Carolina,
District of Columbia, Pennsylvania and Delaware) and requested a list of computer
equipment, if any, that they had on-site and were ready for disposal:

      •   From the District of Columbia equipment list, we selected 10 out of 33 pieces
          of equipment for testing, and we performed our testing on-site.

      •   We selected 10 out of 22 pieces of equipment for testing from the
          North Carolina inventory of surplus equipment. Five of these items were
          tested on-site. The remaining five were brought back to the Office of the
          Inspector General’s (OIG) headquarters in Baltimore for testing.

      •   From the Pennsylvania equipment list, we selected all 21 pieces of equipment
          for testing, and we performed our testing on-site.

      •   From the Delaware equipment list, we selected 6 out of 49 pieces of
          equipment for testing and we requested that the DDS systems personnel
          remove the hard drives from 6 workstations that were being excessed. These
          hard drives were then transported back to the OIG headquarters and tested.

To accomplish our testing we used EnCase®, a forensic software product that enabled
us to read the contents of the hard drives being tested. We also interviewed DDS
personnel as to the policies and procedures they followed for disposing computer
equipment to verify that they were following Social Security Administration policy. Our
work was performed at the selected sites from June 2004 to February 2005 in
North Carolina, District of Columbia, Pennsylvania, Delaware and Maryland. We
conducted our review in accordance with generally accepted government auditing
standards.
                  Appendix C

Agency Comments
                                    SOCIAL SECURITY
MEMORANDUM

                                                                          34321-24-1358
Date:   July 15, 2005                                                     Refer To: S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Larry W. Dye /s/
        Chief of Staff

Subject: Office of the Inspector General (OIG) Draft Report, “State Disability Determination
        Services’ Removal of Sensitive Information from Excessed Computers” (Audit No.
        22005015)—INFORMATION


        We appreciate OIG’s efforts in conducting this review. Our comments on the draft
        report are attached.

        Please contact me if you have any questions. Staff questions may be referred to
        Candace Skurnik, Director of the Audit Management and Liaison Staff, at extension
        54636.

        Attachment




                                                   C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “STATE DISABILITY DETERMINATION SERVICES’ REMOVAL OF
SENSITIVE INFORMATION FROM EXCESSED COMPUTERS” (A-14-05-15063)

Thank you for the opportunity to review and provide comments on this OIG draft report.
We agree with the thrust of the report. The Social Security Administration (SSA) has a
responsibility to protect our clients’ sensitive data from compromise during the disposal
process, and we take that responsibility very seriously. SSA maintains and enforces
effective policies and procedures for protecting sensitive data during its disposal. As
noted in this OIG report, the data disposal issues at Disability Determination Service
(DDS) offices are limited in scope. We are working to resolve these issues to ensure
that sensitive data is not compromised.

Recommendation 1

Direct DDSs either to ensure data is irretrievable or physically remove and destroy the
hard drives on computers to be excessed.

Comment

We agree. We are working to develop appropriate methods to ensure that sensitive
data is removed from all electronic media prior to its disposal. Until the procedures are
ready, we have instructed the DDSs that have Wang processors and backup tapes not
to excess them until we are sure the data can be completely destroyed.

The draft report highlights two problem areas: 1) limitations of the Wipe Disk utility as it
applies to Wang servers; and 2) DDSs storing obsolete server tapes in lieu of guidance
from SSA on how to dispose of them. SSA is working with a contractor to design an
optimal process to ensure that sensitive data is eradicated from the Wang proprietary
hardware prior to its disposal. As noted in the OIG draft report, Nebraska is the only
State still using a Wang server and they are migrating away from it. Of the 15 Wang
servers mentioned in the OIG report, 14 are currently out of production and the 15th
soon will be.

In the area of tape disposal, we are working to finalize a proposal that, once
implemented, will resolve this issue. In the interim, the DDSs and other SSA offices are
temporarily storing tapes until they can be degaussed, rather than risking the
inadvertent release of sensitive data.




                                             C-2
Recommendation 2

Modify or update the DDS Security Document (DSD) and Program Operations Manual
System (POMS) to ensure the Agency's guidance is complete and consistent regarding
the proper method of removing data from and disposing of obsolete server tapes.

Comment

We agree. The DSD and POMS (subchapter DI 39566.000 DDS’ Privacy and Security)
will be updated once we have developed the appropriate methods to ensure that
sensitive data is removed from all electronic media prior to its disposal including the
data from the Wang processors and backup tapes.

Recommendation 3

Ensure DDS personnel are aware of the policy and procedures to dispose of any claimant
data in such a manner as to make the data irretrievable to unauthorized personnel.

Comment

We agree. On June 8, 2005, we provided a reminder to SSA regional offices requesting
that they instruct the DDSs that have Wang processors and backup tapes not to excess
them until we are sure the data can be completely destroyed. Once we have developed
appropriate methods for ensuring that sensitive data is removed from the subject
electronic media prior to its disposal, we will provide any necessary additional reminders
to SSA regional offices and the DDSs. Currently, the DSD provides instructions to the
States regarding disposal of claimant data. We will ensure that the DSD and POMS are
updated to include language that the data should be irretrievable to unauthorized
personnel.

[In addition to the information listed above, SSA also provided technical comments
which have been addressed, where appropriate, in this report.]




                                           C-3
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Albert Darago, Acting Director, Data Analysis and Technical Audits Division (410)
   965-9710

   Phil Rogofsky, Audit Manager, Network Security and Telecommunications Branch
   (410) 965-9719

Acknowledgments
In addition to those named above:

   Greg Thompson, Senior Auditor

   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-14-05-15063.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
